SAFE Platinum Rewards Visa® Credit Card
PRICING INFORMATION
Variable rates are based on the Prime Rate as of
February 1, 2021.

(APR = Annual Percentage Rate)
(MPR = Monthly Periodic Rate)

Annual Percentage Rate (APR) for Purchases
Rates based on the Prime Rate

Prime + 6.74% to Prime + 13.24%
(APR) 9.99% to 16.49%

(MPR) 0.833% to 1.374%
Annual Percentage Rate (APR) for Balance
Transfers and Cash Advances

Prime + 6.74% to Prime + 13.24%
(APR) 9.99% to 16.49%
(MPR) 0.833% to 1.374%

Minimum Interest Charge

None

Transaction Fees
Balance Transfer
Cash Advance % of Transaction
Foreign Transaction

None
3% (min: $10 to max: uncapped)
None

Account Fees
Annual
Late Payment
Returned Payment

None
$15 or minimum payment amount,
whichever is less
Up to $10

Variable Rate Information

Variable Rates are calculated by adding together an index and a margin. This index is the Prime Rate as
published in the Wall Street Journal on the 15th of each month. An increase or decrease in the index will
cause a corresponding increase or decrease in your variable rates on the first day of your billing cycle
that begins in the same month in which the index is published. An increase in the index means that you
will pay higher interest charges and have a higher Total Minimum Payment Due.

Interest Rate Adjustment

An interest rate adjustment will occur when your account is 60 days or more past due. If your account is
60 days past due, the interest rate for existing and new balances will be increased to an ANNUAL
PERCENTAGE RATE of 21.90%. This interest rate increase will be effective beginning after 45-day
notice is provided to you. The interest rate adjustment will terminate if you make the required minimum
payments for six consecutive months.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest
on purchases if you pay your entire balance by the due date each month. We will begin charging interest
on cash advances and balance transfers as of the transaction date.

Balance Subject to Interest Rate

Average Daily Balance Method (including new Purchases):
We figure the interest charge on your account by applying the periodic rate to the "average daily balance"
of your account. To get the "average daily balance" we take the beginning balance of your account each
day, add any new purchases, advances and fees, and subtract any unpaid interest or other finance
charges and any payments or credits. This gives us the daily balance. Then, we add up all the daily
balances for the billing cycle and divide the total by the number of days in the billing cycle. This gives us
the "average daily balance."

2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1509 02/01/2021

Credit Card Agreement and
Truth-in-Lending Disclosure
In this Agreement, the words you and your mean each and all of those who are approved for the credit card account.
Card means the Visa Credit Card and any duplicates and renewals we issue. Account means your open-end credit
card Account with us, whether the Account is accessed using a Card, the number embossed on the Card, special
checks we may issue that allow you to access the Account, or other devices such as mobile apps that allow you to
initiate credit transactions to the Account. We, us, and ours mean SAFE Credit Union (“SAFE”).
This agreement applies to SAFE Platinum Visa Credit Card, SAFE Platinum Rewards Visa Credit Card, SAFE
Platinum Cash Rewards Visa Credit Card, SAFE Platinum Secured Visa Credit Card, SAFE Platinum Rewards
Secured Visa Credit Card, and SAFE Platinum Cash Rewards Secured Visa Credit Card.
Agreement: By applying for, using, or permitting others to use the Card or Account, you agree to the terms and
conditions contained in this Agreement. If you do not agree to these terms and conditions, DO NOT USE the Card
and notify us immediately that you wish to cancel your Account.
Using Your Account: You can use your Account in the following ways. Other methods of accessing your Account
for transactions may become available in the future.
(a) You can present your Card or Card number to initiate purchase and cash advance transactions with
merchants and others who honor Visa cards. For remote transactions such as purchases made over the
telephone or online, you may need to provide the Card expiration date and security code. If you give your
Account information to a third party to authorize recurring payments, such as gym membership dues, you
must notify the third party when you revoke your authorization.
(b) You can input your Account information into mobile payment applications, such as Apple Pay® and Android
Pay™, on mobile devices and use those payment applications to initiate payments. These payments will be
treated as purchases for purposes of accrual of interest on your Account balance.
(c) You can write special checks we may, from time to time, issue on your Account to any lawful payee. Use of
special checks will be treated as cash advances for purposes of accrual of interest on your Account balance.
The following rules apply to use of special checks: (i) You can stop payment on a special check if you submit
a stop payment request to us at least 24 hours before the check is presented to us for payment by the payee.
You must give us the Account number, special check number, and exact amount of the check. If this
information is not absolutely accurate, we will not be liable for failure to stop the payment because our
automated payment system may not be able to find the check. (ii) The fee for stopping payment on a special
check is the same as for stopping payment on a SAFE check (share draft). Please refer to the SAFE Fee
Schedule. (iii) We operate in an automated processing environment and do not physically examine signatures
on special checks. You must report any unauthorized special check no later than 60 days after the first billing
statement on which it appears, or we will not be responsible for any loss resulting from payment of the check.
(iv) Merchants may convert special checks you write to electronic (automated clearinghouse/ACH) payments;
for example: special checks you write to pay bills (ARC [accounts receivable] entries) or to pay merchants
for goods or services (POP [point-of-purchase] entries and BOC [back office conversion entries]). Payees
and merchants who may convert your special checks to ACH entries are required to notify you in writing that
they may do so. Your rights and responsibilities with respect to all ACH entries are governed by California
law, Consumer Financial Protection Bureau, Regulation E, and ACH rules.
(d) You can use your Card and PIN at SAFE ATMs and other ATMs that honor Visa Cards to obtain a cash
advance. Cash advance fees apply to the use of your Card at ATMs. In addition, if you use an ATM that is
not operated by SAFE, that ATM operator may charge a fee for use of their ATM, which they are required by
law to disclose to you before you become obligated to pay. The following rules apply to ATM cash advances
using your Visa Card: (i) The amount of cash you can obtain may be limited by your available credit or limits
set by the operator of the ATM you are using. (ii) We will not be liable to you if the transaction is declined due
to you not having sufficient available credit, the ATM you were using was not working properly, your Card or
PIN is subject to a block, or circumstances beyond our control such as fire, flood, or failure of a central
processing facility. (iii) Use common sense and reasonable care in using ATMs, especially at night. We
cannot guarantee the safety of any ATM location.
2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 1 of 8

(e) Certain types of transactions may be coded as cash advances by the merchant to which you present your
Card or Account number. We will treat these transactions as cash advances for purposes of accrual of interest
on your Account balance. Examples of such transactions include, but are not limited to, (i) wire transfers, (ii)
money order purchases, (iii) bets, (iv) lottery tickets, and (v) casino gaming chips.
Our Right to Refuse to Honor Transactions: We may refuse to honor transactions initiated on your Account for
any lawful reason, including but not limited to the following: (a) you are in default on the Account or any other
obligation you have to SAFE, (b) a merchant hold causes you to reach or exceed your credit limit or the transaction
would otherwise cause you to exceed your credit limit, or (c) we reasonably suspect the transaction is illegal or
fraudulent. If we detect unusual or suspicious activity, we may decline to authorize a transaction or suspend access
to your Account until we can verify that the suspicious transaction is authorized. If you plan to travel or make large
purchases, the risk that your transaction will be declined may be reduced if you notify us of your plans in advance.
Prohibition Against Illegal Transactions: You agree you will not use or permit others to use the Card or Account
for transactions that violate applicable laws or regulations. For example, you will not use or permit use of the Card
for illegal online gambling. By initiating or allowing others to initiate a transaction using the Card or Account, you
warrant to us that the transaction is lawful. We have the right, but not the obligation, to refuse to honor any transaction
we reasonably believe to be illegal. You cannot use the actual or alleged illegality of an authorized transaction as a
defense to your obligation to pay what you owe. You agree that you will at your sole cost defend, indemnify and hold
SAFE harmless from any claim to which we become subject as a result of the use of your Account for actual or
alleged illegal transactions.
Honest Dealing: You agree to promptly notify us any changes in your name, address, e-mail address, or telephone
numbers(s). You may notify us through SAFE Online Banking, write to us separately, call us, or complete the
Address/Phone Number Change section provided on your monthly statement. You agree that SAFE can correct
clerical errors, including but not limited to errors in rates and fees quoted to you, provided we do so in good faith.
Credit Limit: We will set your credit limit based on our evaluation of your creditworthiness and our policies. In some
cases, the assessment of interest or fees may cause your Account balance to exceed your credit limit. You agree to
repay any amount by which your Account balance exceeds your credit limit immediately upon our demand. We may
change your credit limit or terminate your Account based on a variety of factors, such as your payment and transaction
history with us and information we receive from third parties, including credit reporting agencies. You may request an
increase in your credit limit by submitting an application.
Changes in Terms: We reserve the right to make changes to this Agreement from time to time by sending you any
advance written notice required by law and subject to legal requirements. Changes may include, but are not
necessarily limited to, changes in the interest rate, fees, and other terms. By keeping the Account open after the
effective date of the changes, you consent to the changes. You agree that if we change your Card and/or Account
number in connection with a Card reissue, replacement of a lost or stolen Card or other permissible reason, we have
permission to notify Visa. For participating merchants, the Visa Account Updater service will automatically update
your Card and Account number so that any transactions you have already authorized and payment services to which
you have linked your Account (for example PayPal or Apple Pay) will continue uninterrupted.
Responsibility for Payment: You agree to repay purchases, balance transfers, and cash advances initiated by
you or any person to whom you have given permission to use the Account plus associated interest and fees. By
making your Card, Card number, or any other access device available to a person, you are making that person a
Permissive User of your Account and he/she can initiate any transaction you could initiate yourself, even if it exceeds
the scope of your permission. If you submit an authenticated written request to issue a Card to a person other than
yourself, we will issue the Card per your request and that person will become an Authorized Cardholder of your
Account. You are responsible for repayment of all transactions initiated by Permissive Users and Authorized
Cardholders plus associated interest and fees. We are not subject to agreements between you and Permissive Users
or Authorized Cardholders limiting their use of your Card or the Account unless we have agreed in writing to establish
a limit on an Authorized Cardholder’s Card that is lower than the limit on the Account. Your obligation to pay the
Account balance continues even though an agreement, divorce decree, or other court judgment to which we are not
a party may direct you or one of the other persons responsible to pay the Account. We reserve the right to decline
to issue Authorized Cardholder Cards for any lawful reason. If you want to terminate an Authorized Cardholder’s
use of the Account, you must notify us in writing. You will remain responsible for all of the Authorized
Cardholder’s transactions initiated prior to our receipt of your written notice.

2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 2 of 8

Payments: Each month you must pay at least the minimum payment shown on your statement by the date specified
on the statement. Payments must be made in U.S dollars using payment instruments drawn on U.S. financial
institutions. You may pay more frequently, pay more than the minimum payment, or pay the total new balance in full.
If you make extra or larger payments than the minimum payment, you are still required to make at least the minimum
payment each month your Account has a balance (other than a credit balance). The minimum payment will either be
2% of the new balance on the date of cycle closing or $10, whichever is greater. If the new balance is less than $10,
you only pay that amount. In addition to the minimum payment due, you agree to pay any amount which is past due
or over limit immediately.
Payments will be applied as follows: We will apply your payments first to finance charges (which include interest,
cash advance and balance transfer fees, and foreign transaction fees), then to late fees (if any), and then to the
principal balance. If your account has balances with different APRs, we will allocate the amount of your payment
equal to the minimum payment due to the lowest APR balances first. Payment amounts in excess of your minimum
payment due will be applied to balances with higher APRs before balances with lower APRs.
All payments will be posted to your Account as of the date we receive them, provided we receive them before close
of business on any business day. Payments received after the close of business on any business day will be credited
on the next business day. If a non-cash payment instrument presented for payment on your Account is returned
unpaid, we reserve the right to charge interest on the Account retroactively to the date on which we credited the
returned payment. All non-cash payments are subject to verification and collection by us. We reserve the right to
delay restoration of your Credit Limit for the maximum time allowed by law.
Statements: You will receive a billing statement each month there is a balance on your Account for the amounts due
under this Agreement. If you elect to receive your billing statement electronically, you will receive an email notification
alerting you when your eStatement is ready to view online. Failure to receive a billing statement or email notification
does not relieve you from making any required minimum payment. To receive your monthly statement electronically,
you can enroll in eStatements through SAFE Online Banking.
Interest Charges: You have a grace period of 25 days from the statement date to pay your statement balance in full
before interest is assessed on the purchase balance. If you do not pay your statement balance in full by the payment
due date, you will be charged interest on the then outstanding purchase balance and on future purchases from the
transaction date. We will begin charging interest on cash advances and balance transfers as of the transaction date.
We figure the interest charge on your Account by applying the periodic rate to the “average daily balance” of your
Account. The periodic rate is 1/12 of the Annual Percentage Rate assigned to your Account. To get the “average
daily balance,” we take the beginning balance of your Account each day, add any new purchases, advances and
fees, and subtract any unpaid interest and other finance charges and any payments or credits. This gives us the daily
balance. Then, we add up all the daily balances for the billing cycle and divide the total by the number of days in the
billing cycle. This gives us the “average daily balance."
Interest Rate Information: The Annual Percentage Rates (APRs) applicable to purchases, cash advances, and
balance transfers that will apply to your Account, along with information about how your variable APR will be
calculated and fee information, were disclosed to you in the Truth-in-Lending Disclosure provided to you with this
Agreement when you opened this Account. Variable APRs may change monthly at the beginning of each billing cycle
based on the movements of the Index. The Index is the prime rate correctly published in the Wall Street Journal,
Western Edition, on the 15th calendar day of the month prior to the rate adjustment. If the 15th day of the month is not
a business day, the prime rate published on the next business day will be used. Your variable APR will be determined
by adding the margin assigned to your Account (also disclosed to you in the Truth-in-Lending Disclosure) to the Index.
Introductory APR: At our option, the initial APR on your Account for certain types of transactions may be a
discounted APR (Introductory APR) that is lower than the APR that would ordinarily apply for that type of transaction.
If an Introductory APR applies to your Account, the Introductory APR and the period of time it will be effective are
shown on the Truth-in-Lending Disclosure. After the Introductory APR period expires, the APR will automatically
increase to equal the Index in effect at the end of the Introductory APR period plus your margin.
Promotional APR: At our option, special promotions may be offered from time to time. The specific terms will be
provided at the time of the offer. Generally, the promotional APR will only apply to select transactions (i.e., purchases
and balance transfers) during the promotional period. The APR for all other transactions, not outlined in the promotion
as eligible for the promotional APR, will remain unchanged.
2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 3 of 8

If your required minimum payment is not received within 60 days of the due date, we may end your Introductory and
Promotional APRs, including your promotional Balance Transfer APR, until six consecutive payments are made on
time.
Penalty Annual Percentage Rate (APR): If you default on your Account for any of the following reasons, we may
increase the APR on the entire balance to the Penalty APR of 21.90% with a 45-day notice if:
•

Your Account is 60 days or more past due

•

You make a payment that is returned

The Penalty APR may terminate if you make six consecutive minimum payments on time starting with your first
payment due after the effective date of the Penalty APR. If you do not make these six consecutive minimum monthly
payments on time, we may keep the Penalty APR on your Account indefinitely.
Late Payment Fee: A late payment fee of the lesser of $15 or the minimum payment due on your Account will be
added to your balance if your required minimum payment is not received within 15 days after the due date.
Other Fees: The fees associated with your Account are contained in the Disclosure accompanying this Agreement
at the time your established the Account.
The following additional fees may be imposed:
•

Copy of Sales Draft or Transaction Receipt:

$15.00

•

Express Replacement Card:

$25.00

•

Special Check Stop Payment:

$30.00

•

Replacement Card:
(waived for Capitol Club, Perfect Cents
Checking and Prestige Checking)

$10.00

Credits: Merchants who honor your Card and give you credit for returns or adjustments will provide us with a credit
which we will post to your Account. If your credits and payments exceed what you owe us, we will apply this credit
balance against future purchases and cash advances, or refund it upon your written request if it is $1 or more. Any
credit balance not cleared within 30 days will be transferred to your Share Savings Account.
Foreign Transactions: Purchases and cash advances made in foreign currencies will be charged to your Account
in U.S dollars. The exchange rate between the transaction currency and the billing currency used for processing
international transactions is either a wholesale market rate or the government mandated rate in effect one day prior
to the date processed by Visa. At the time of the conversion, the network processing the transaction may impose a
fee for this service. You agree that the transaction amount as converted by the network may be charged to your
Account, as well as any conversion charges which are imposed.
A fee, calculated in U.S. dollars, may be imposed on all foreign transactions, including purchases, cash advances
and credits to your Account. A foreign transaction is any transaction that you complete or a merchant completes on
your Card outside the United States, with the exception of U.S. military bases, U.S. territories, U.S. embassies or
U.S. consulates. The fee will equal that assessed by Visa International and will generally be 1% of the transaction
amount in U.S. dollars if your transaction is conducted in a foreign currency, or 0.80% of the transaction amount in
U.S. dollars if your transaction is conducted in U.S. dollars outside the U.S. The foreign transaction fee will not exceed
1% of the amount in U.S. dollars.
Security Interest: Applicable to Platinum Secured, Platinum Rewards Secured, and Platinum Cash Rewards
Secured Accounts only:
If you elect a Platinum Secured, Platinum Rewards Secured or Platinum Cash Rewards Secured Visa Account, you
will sign a separate Credit Card Security Agreement to pledge shares in an account at SAFE equal to at least 100%
of your credit limit. You agree that we can take the pledged shares to recover any amount by which your Account is
delinquent. You will not be permitted to withdraw the pledged shares until your Account is closed and paid in full,
unless we agree otherwise in writing. If we do inadvertently permit you to withdraw any portion of the pledged shares,
you will be deemed in default and we can declare your entire Account balance due and payable in full.
2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 4 of 8

SAFE Payment Protection: You understand that purchasing SAFE Payment Protection is optional and will not affect
our decision whether to extend credit to you or, if so, on what terms. If you elect this product, you will sign a separate
document that will disclose costs and terms to you. The monthly costs for SAFE Payment Protection will be added to
your Account balance and accrue interest until paid.
Default: You will be in default if:
•

You fail to make any minimum payment within 15 days of the payment due date.

•

You breach any material term of this Agreement or any other Agreement you have with SAFE.

•

You become insolvent or the subject of a bankruptcy proceeding or we otherwise reasonably determine that
our ability to collect what you owe is materially impaired.

•

You die.

•

You have made or do make any false or misleading statements in furnishing your financial information and
other information to us.

We have the right to demand immediate payment in full of your Account if you default, subject to our giving you any
notice required by law. To the extent permitted by law, you will also be required to pay our collection expenses,
including court costs and reasonable attorney fees. All interest and fees called for by this Agreement will continue to
accrue after we declare your Account in default until all principal, interest, and fees you owe are paid in full.
Credit Review: You authorize us to obtain and review your credit report when you applied for your Account. You
authorize us to periodically obtain and review your credit report in order to determine your continued eligibility for
credit. You authorize us to disclose information regarding your Account to credit bureaus and other creditors who
inquire about your credit standing. As required by law, you are hereby notified that a negative credit report reflecting
on your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your credit
obligations.
Joint Credit: If you have applied for a joint Account, each joint applicant will remain jointly and severally liable for
any credit extended pursuant to this Agreement. Either one of you may close the Account, but you will remain jointly
and severally obligated to repay the entire balance that was outstanding as of the date we receive your notice to
close the Account.
Closing Your Account: You may close your Account at any time by notifying us in writing. SAFE can close your
Account at any time for any lawful reason. Closing of your Account by you or SAFE will not affect your obligation to
pay all amounts owed plus any interest, fees or other charges lawfully assessed under this Agreement. We will not
approve any transactions presented after we have knowledge that the Account is closed. Interest, fees, and collection
costs will continue to accrue after Account closing as called for by this Agreement unless prohibited by applicable
law. If your Account is closed, any cash or point rewards you have earned will be forfeited.
Account Security: You agree to handle your Card and other devices (including mobile devices that include payment
applications into which you have input Account information) with care. You agree to promptly report the loss or theft
of, or actual or potential unauthorized access to, your Card, Account information or device that could be used to
initiate unauthorized transactions on your Account. Do not write your PIN number on your Card. Use passwords to
minimize unauthorized risk of payment applications on your mobile devices.
We may, at any time, partially or fully restrict your ability to make credit transactions through a third party/mobile
device.
Lost/Stolen Cards and Unauthorized Use of Your Account: You are responsible for the security of the Card and
other devices that can be used to access your Account and must maintain the confidentiality of the PIN we may
assign you. You agree to notify us immediately of a lost or stolen Card or if you believe your Account has been or
may be used without your permission. You may notify us by calling (916) 979-7233 or (800) SEE-SAFE 7 days a
week, 24 hours a day. If you are on vacation or out of the country, Visa offers emergency card replacement service.
For a Visa emergency card replacement, call (800) VISA 911 (800-847-2911).

2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 5 of 8

If your statement has an error or a charge you did not authorize, you must tell us in writing within 60 days after you
get that statement. If your Card and/or Account is subject to unauthorized use, you agree to assist us in our
investigation and obtain police reports, if filed. A signed statement may also be required.
You may be liable for the unauthorized use of your Card. You will have zero liability for unauthorized use that occurs
after you notify us of the loss, theft, or possible unauthorized use. You will have zero liability for unauthorized
transactions made with your Card, unless you are grossly negligent in handling your Card or make fraudulent use of
your Card. In any case, your liability will not exceed $50.
Telephone Contact Consent: You agree that at all times you have a balance on this Account, you will provide us
with a telephone number at which you can be reached during business hours. By giving us or any third party acting
on our behalf any landline or wireless telephone number, you confirm that (a) you have the right to authorize us to
contact you at that number, and (b) we and any third party acting on our behalf have your permission to (i) contact
you at that number for any lawful reason, including but not limited to servicing and collecting your Account, by
telephone or text message using a live representative or automated dialing system and (ii) leave messages for you
at that number using a live representative, prerecorded voice message, or text message. Your consent applies even
though the telephone service provider may charge fees for receiving calls or text messages. We will not be
responsible for any fees charged by your telephone service provider.
Call Monitoring: You agree that we may monitor and record your phone calls with us and our affiliates, agents, and
contractors.
Non-Waiver Provision: We can delay enforcing any of our rights under this Agreement without losing them. If any
terms of this Agreement are found to be unenforceable, all other provisions will remain in full force.
Applicable Law: This Agreement and your Account, as well as our rights and duties regarding this Agreement and
your Account, shall be governed by and interpreted in accordance with applicable federal law, including but not limited
to Consumer Financial Protection Bureau Regulation Z and the laws of the State of California.

2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 6 of 8

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do if You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
SAFE Credit Union
Card Services
2295 Iron Point Road, Suite 100
Folsom CA 95630-8765
In your letter, give us the following information:
•

Account information: Your name and account number.

•

Dollar amount: The dollar amount of the suspected error.

•

Description of problem: If you think there is an error on your bill, describe what you believe is wrong and
why you believe it is a mistake.

You must contact us:
•

Within sixty (60) days after the error appeared on your statement.

•

At least three (3) business days before an automated payment is scheduled, if you want to stop payment
on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if
we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.

•

The charge in question may remain on your statement, and we may continue to charge you interest on that
amount.

•

While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

•

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related
to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date payment is
due. We may then report you as delinquent if you do not pay the amount we think you owe.

2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 7 of 8

If you receive our explanation but still believe your bill is wrong, you must write to us within ten (10) days telling us
that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must
let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if
your bill is correct.
Your Rights if You Are Dissatisfied with Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due
on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address,
and the purchase price must have been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM
or with a check or device that accesses your credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
SAFE Credit Union
Card Services
2295 Iron Point Road, Suite 100
Folsom CA 95630-8765
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may
report you as delinquent.

2295 Iron Point Road, Suite 100, Folsom CA 95630-8765 ⋅ (916) 979-7233 ⋅ (800) SEE-SAFE ⋅ www.safecu.org
S-1455 08/01/2019

Page 8 of 8

